                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

Case Number: A10090070                                                                   Page 1 of 1



                 We assessed an allegation that an NSF employee 1 improperly accrued credit hours (CH)
         during 2010. We examined NSF telework and credit hour policies, and then evaluated the
         Subject's ITAS and timekeeper certification records. We identified four days on which the
         Subject appears to have improperly earned a small number of credit hours outside of parameters
         established by NSF policies; these were approved by her supervisor. The small number of credit
         hours does not justify further action on our part.

                   This case is closed with no further action taken.




NSF OIG Form 2 (11/02)
